TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                                        RECOVERY ACT


                        The Internal Revenue Service Faces
                             Significant Challenges in
                             Verifying Eligibility for the
                           First-Time Homebuyer Credit



                                       September 29, 2009

                              Reference Number: 2009-41-144




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review
 process and information determined to be restricted from public release has been redacted from
                                          this document.

 Redaction Legend:
 2(f) = Risk Circumvention of Agency Regulation or Statute



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                    HIGHLIGHTS


WHY TIGTA DID THE AUDIT                             substantiate the purchase of a home. As a
                                                    result, TIGTA identified 19,351 Tax
Section 1006 of the American Recovery and
                                                    Year 2008 electronically filed tax returns on
Reinvestment Act of 2009 revised and
                                                    which taxpayers claimed Credits totaling
extended the First-Time Homebuyer Credit
                                                    over $139 million for homes that had not yet
(Credit) provided for in the Housing and
                                                    been purchased.
Economic Recovery Act of 2008. Taxpayers
qualifying for the revised Credit may claim the     In addition, taxpayers who appear not to be
$8,000 Credit on either their Tax Year 2008 or      first-time homebuyers (based on their prior
2009 individual income tax returns. The             tax return information) were claiming the
overall objective of this review is to determine    Credit. Many taxpayers will be identified by
whether the Internal Revenue Service (IRS) has      recently implemented IRS filters and subject
controls in place that effectively identify         to pre-refund audits; however, TIGTA
erroneous claims for the Credit.                    identified 70,005 taxpayers whose tax
                                                    returns were processed prior to the
IMPACT ON TAXPAYERS
                                                    implementation of these filters.
The First-Time Homebuyer Credit as revised is
                                                    Also, 48,580 taxpayers who may not have
a refundable tax credit. The Joint Committee
                                                    been aware of the changes to the Credit
on Taxation estimated that more than
                                                    included in the American Recovery and
$4.3 billion more would be paid to first-time
                                                    Reinvestment Act of 2009 did not claim the
homebuyers in Fiscal Years 2009 and 2010 as a
                                                    full amount to which they were entitled.
result of the revisions in the American
Recovery and Reinvestment Act of 2009.              RECOMMENDATIONS AND IRS
                                                    RESPONSE
The President of the United States has called on
Federal agencies to ensure that recovery funds      The IRS should address questionable claims
are used for authorized purposes and that every     for the Credit (such as taxpayers claiming
step is taken to prevent fraud, waste, error, and   the Credit before purchasing a home or
abuse. The IRS faces significant challenges to      when they were not first-time homebuyers)
ensure that recovery funds it administers are       and recover the Credit from taxpayers as
used for authorized purposes.                       warranted. The IRS should also monitor
                                                    accounts of taxpayers who purchased homes
WHAT TIGTA FOUND
                                                    in Calendar Year 2009 and claimed Credits
The IRS developed controls to identify many         of $7,500 to determine if the taxpayers
questionable claims for the Credit. However,        amend their returns. If not, the IRS should
some key controls were missing to prevent           contact these taxpayers to inform them that
individuals from erroneously claiming the           they may be entitled to an additional refund
Credit. Despite recommendations made in our         if the purchase price of their home was
November 25, 2008, memorandum as part of a          greater than $75,000.
prior audit, the IRS did not use information
                                                    In its response to the report, the IRS agreed
provided on the First-Time Homebuyer Credit
                                                    to our recommendations and plans to take
(Form 5405) to verify eligibility requirements
                                                    corrective actions to address them.
to claim the Credit and did not require
taxpayers to provide documentation to
                                                DEPARTMENT OF THE TREASURY
                                                     WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                             September 29, 2009


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION
                COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION

 FROM:                           Michael R. Phillips
                                 Deputy Inspector General for Audit

 SUBJECT:                        Interim Audit Report – The Internal Revenue Service Faces Significant
                                 Challenges in Verifying Eligibility for the First-Time Homebuyer
                                 Credit (Audit # 200940138)

 This report presents the interim results of our review to determine whether the Internal Revenue
 Service (IRS) has controls in place that effectively identify erroneous claims for the First-Time
 Homebuyer Credit (Credit). Our final report on this subject will be issued in the first quarter of
 Calendar Year 2010 and will include updated results. The audit addresses the IRS major
 management challenge of Processing Tax Returns and Implementing Tax Law Changes and
 presents selected information related to the IRS implementation of Section 1006 of the American
 Recovery and Reinvestment Act of 2009 (ARRA). 1
 The ARRA provides separate funding to the Treasury Inspector General for Tax Administration
 through September 30, 2013, to be used in oversight activities of IRS programs. This audit is
 being conducted using ARRA funds.
 The IRS questioned some of the conclusions articulated in the report. We would like to
 comment on two of the issues raised by the IRS and explain that the President’s mandate with
 regard to stimulus payments is to prevent fraud, and not simply minimize it or address it after it
 has occurred.




 1
     Pub. L. No. 111-5, 123 Stat. 115.
                 The Internal Revenue Service Faces Significant
                    Challenges in Verifying Eligibility for the
                          First-Time Homebuyer Credit



The IRS questioned a recommendation made in a prior audit 2 to require homebuyers to attach
documentation to their return to support their claim for the Credit, stating that the law as passed
by Congress does not provide the IRS the authority to reject the claim based on insufficient
documentation—an audit is required to disallow the claim. The IRS questioned our conclusion
that attaching paper documentation would achieve a better outcome.
In our opinion, requiring taxpayers to provide documentation would discourage abuse of the
Credit before it occurs, much in the same way that requiring documentation to substantiate
certain noncash charitable contributions was designed to discourage abuse. Further, taxpayers
would not have been able to claim the Credit for future purchases because they would have no
documentation to provide.
Although the IRS does not have authority to reject claims for the Credit made by taxpayers who
do not provide documentation, it does, as it stated, have the authority to audit those claims. The
fact that a taxpayer could not provide requested documentation would be a strong indicator that
the claim for the Credit was highly questionable and may warrant a pre-refund audit.
The IRS also contends that our statement that the IRS improperly paid $140 million to taxpayers
claiming the Credit for future purchases was premature because the taxpayers may ultimately
purchase a home. While we agree that some may ultimately qualify for the Credit, the number
cannot yet be estimated. Regardless, the amount improperly paid will not change. At the time
the IRS paid the Credit to these taxpayers, the taxpayers did not qualify. The law does not
provide for prepayment of these Credits and the IRS, by making these payments, did not
properly administer the tax law, regardless of whether or not the taxpayers will subsequently
purchase a home. Management’s complete response to the draft report is included as
Appendix IV.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
Services), at (202) 622-5916.


2
 The 2009 Filing Season Was Successful Despite Significant Challenges Presented by the Passage of New Tax
Legislation (Reference Number 2009-40-142, dated September 21, 2009). The filing season is the period from
January through mid-April when most individual income tax returns are filed.




                                                                                                             2
                     The Internal Revenue Service Faces Significant
                        Challenges in Verifying Eligibility for the
                              First-Time Homebuyer Credit




                                              Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Programming Was Developed to Reject Certain Erroneous Claims
          for the First-Time Homebuyer Credit ...........................................................Page 3
          The First-Time Homebuyer Credit (Form 5405) Was Not Used to Verify
          Eligibility and No Documentation Was Required to Substantiate
          the Purchase of a Home ................................................................................Page 3
                    Recommendation 1:........................................................Page 5

                    Recommendation 2: .................................................................. Page 6

          Some Taxpayers Who Appear Not to Be First-Time Homebuyers Are
          Claiming the First-Time Homebuyer Credit.................................................Page 6
                    Recommendation 3:........................................................Page 7

          First-Time Homebuyer Credits Were Claimed by Taxpayers
          Under 18 Years of Age .................................................................................Page 8
                    Recommendation 4:........................................................Page 8

          First-Time Homebuyer Credits Were Claimed by Taxpayers Filing Tax
          Returns With Individual Taxpayer Identification Numbers ........................Page 9
          Taxpayers Claiming Credits on Amended Returns Should Be
          Checked for Prior Home Ownership Before Refunds Are Issued ................Page 10
          Taxpayers May Be Unaware of the Changes to the First-Time
          Homebuyer Credit ........................................................................................Page 11
                    Recommendation 5:........................................................Page 11

                    Recommendation 6:........................................................Page 12
              The Internal Revenue Service Faces Significant
                 Challenges in Verifying Eligibility for the
                       First-Time Homebuyer Credit



Appendices
     Appendix I – Detailed Objective, Scope, and Methodology ........................Page 13
     Appendix II – Major Contributors to This Report ........................................Page 17
     Appendix III – Report Distribution List .......................................................Page 18
     Appendix IV – Management’s Response to the Draft Interim Report .........Page 19
       The Internal Revenue Service Faces Significant
          Challenges in Verifying Eligibility for the
                First-Time Homebuyer Credit




                       Abbreviations

ARRA             American Recovery and Reinvestment Act of 2009
IRS              Internal Revenue Service
ITIN             Individual Taxpayer Identification Number

U.S.             United States
                 The Internal Revenue Service Faces Significant
                    Challenges in Verifying Eligibility for the
                          First-Time Homebuyer Credit




                                           Background

Section 1006 of the American Recovery and Reinvestment Act of 2009 (ARRA) 1 revised and
extended the First-Time Homebuyer Credit (Credit) provided for in the Housing and Economic
Recovery Act of 2008. 2 The Housing and Economic Recovery Act of 2008 allowed taxpayers
who purchase a principal residence after April 8, 2008, and before July 1, 2009, to claim a Credit
equal to 10 percent of the purchase price of the home, limited to $7,500. The Credit, as
expressed in this Act, served as an interest-free loan to be paid back over a 15-year period
beginning 2 years after the Credit was claimed. The new provision contained in Section 1006 of
the ARRA extended the Credit to include purchases made on or after January 1, 2009, and before
December 1, 2009, increased the maximum Credit to $8,000, and eliminated the repayment
requirements as long as the taxpayer retains the residence for 36 months. Taxpayers qualifying
for the revised Credit may claim the $8,000 Credit on either their Tax Year 2008 or 2009
individual income tax returns.
The President of the United States (U.S.) has stated that every taxpayer dollar spent on the
economic recovery must be subject to unprecedented levels of transparency and accountability.
The President has called on Federal agencies to ensure that recovery funds are used for
authorized purposes and every step is taken to prevent instances of fraud, waste, error, and abuse.
Congress allocated $13.6 billion for the First-Time Homebuyer Credit in the Housing and
Economic Recovery Act of 2008. The Joint Committee on Taxation estimated that more than
$4.3 billion more would be paid to first-time homebuyers in Fiscal Years 2009 and 2010 as a
result of the ARRA. As of July 17, 2009, more than 1.1 million tax returns claiming more than
$8 billion in First-Time Homebuyer Credits had been processed.
This interim audit report presents results for audit work completed as of July 25, 2009, and
assesses Internal Revenue Service (IRS) actions to identify and address erroneous claims for the
First-Time Homebuyer Credit. The report also contains selected information related to the First-
Time Homebuyer Credit from our audit of the IRS 2009 Filing Season. 3 Our final report on this
subject will be issued in the first quarter of Calendar Year 2010 and will include updated results.




1
  Pub. L. No. 111-5, 123 Stat. 115.
2
  Pub. L. No. 110-289.
3
  The 2009 Filing Season Was Successful Despite Significant Challenges Presented by the Passage of New Tax
Legislation (Reference Number 2009-40-142, dated September 21, 2009). The filing season is the period from
January through mid-April when most individual income tax returns are filed.
                                                                                                       Page 1
                 The Internal Revenue Service Faces Significant
                    Challenges in Verifying Eligibility for the
                          First-Time Homebuyer Credit



This review is being performed onsite at the IRS Ogden, Utah, Campus. 4 It includes review of
individual income tax returns filed nationwide as well as analysis of data provided by the IRS
Wage and Investment Division Headquarters in Atlanta, Georgia; the Submission Processing
function offices in Lanham, Maryland, and Cincinnati, Ohio; and the Submission Processing
Sites in Fresno, California; Austin, Texas; and Ogden, Utah. We will provide more detailed
objectives and scope in our final report.
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective. Detailed information on our audit
objective, scope, and methodology is presented in Appendix I. Major contributors to the report
are listed in Appendix II.




4
 The data processing arm of the IRS. The campuses process paper and electronic submissions, correct errors, and
forward data to the Computing Centers for analysis and posting to taxpayer accounts.
                                                                                                         Page 2
               The Internal Revenue Service Faces Significant
                  Challenges in Verifying Eligibility for the
                        First-Time Homebuyer Credit




                                Results of Review

Programming Was Developed to Reject Certain Erroneous Claims for
the First-Time Homebuyer Credit
The IRS developed the new First-Time Homebuyer Credit (Form 5405) for eligible taxpayers to
calculate and claim the Credit. This form requires the taxpayer to provide the amount of Credit
being claimed, the address of the home qualifying for the Credit, and the date the home was
purchased. The form was updated after the passage of the ARRA to reflect the increased amount
of the Credit, as well as to change the allowable period for purchasing a home.
In an attempt to ensure accuracy of claims for the First-Time Homebuyer Credit, the IRS
developed programming that rejects electronically filed tax returns or forwards paper tax returns
to the Error Resolution function with the following conditions:
   •   Claims in excess of the maximum allowable Credit.
   •   Claims in excess of allowable amounts for those taxpayers with Adjusted Gross Income
       exceeding income limitations.
   •   Claims without a Form 5405 attached.
During our review of the IRS 2009 Filing Season, we confirmed that IRS programming was
effectively identifying the above conditions. However, some key controls were missing to
prevent an individual from erroneously or fraudulently claiming the Credit and receiving an
erroneous refund of up to $8,000.

The First-Time Homebuyer Credit (Form 5405) Was Not Used to Verify
Eligibility and No Documentation Was Required to Substantiate the
Purchase of a Home
The IRS has been charged to ensure that recovery funds are used for authorized purposes and
every step is taken to prevent instances of fraud, waste, error, and abuse. We found that
information provided on Form 5405 could be used to computer verify certain eligibility
requirements such as the date of purchase and location of the residence, but this information was
not entered into IRS computers from paper returns. Further, date of purchase information from
electronic Forms 5405 was not utilized to verify eligibility for the Credit until late in the
2009 Filing Season.


                                                                                           Page 3
                 The Internal Revenue Service Faces Significant
                    Challenges in Verifying Eligibility for the
                          First-Time Homebuyer Credit



In addition, the IRS did not request that taxpayers attach some form of documentation to tax
returns to verify eligibility before the Credits were allowed. For example, attaching the
U.S. Department of Housing and Urban Development Settlement Statement (Form HUD-1)
received at closing would enable the IRS to verify the purchase of a residence, the date
purchased, the purchase price, and the location of the residence. Although it would not verify
the taxpayer as a first-time homebuyer, it would provide some level of deterrence for ineligible
taxpayers.
In a memorandum dated November 25, 2008, as part of a prior audit, 5 we recommended the IRS
ensure that information on each line of the Form 5405 was transcribed for paper returns and that
the information from Form 5405 be used to validate claims for the First-Time Homebuyer
Credit. We also recommended the IRS require that taxpayers attach documentation to
substantiate a home purchase and verify eligibility for the Credit.
The IRS disagreed with both recommendations. Because of the extensive requirements for
programming and the late passage of the first bill containing this Credit, IRS management did
not request or implement the transcription of the Form 5405. They responded that other
strategies being employed would mitigate our concerns. IRS management stated that a
requirement to supply documentation during the processing of the return would be burdensome
for both the taxpayer and the IRS. Even if the recommended documentation was not provided,
the IRS does not have math error authority to disallow the Credit during processing. The IRS
also noted that requiring documentation would preclude many taxpayers from electronic filing.
We identified 19,351 Tax Year 2008 electronically filed tax returns on which taxpayers claimed
the First-Time Homebuyer Credit for a home which had not yet been purchased, but reportedly
would be in the future. Had the IRS timely implemented our recommendations to both capture
and utilize the purchase date from the Form 5405, these claims would not have been paid. The
amount of the Credits inappropriately claimed totaled $139,555,174. We have not yet
determined the number of paper returns with similar claims.
During the 2009 Filing Season, the IRS implemented computer programming to reject claims
electronically filed with a future purchase date. Controls were also implemented to identify and
disallow claims filed on paper tax returns with future purchase dates. However, IRS
management indicated they have not decided whether to go back and review or correct the
19,351 electronically filed tax returns or try to identify paper returns meeting the same criteria
that may have been processed before controls were put into place. IRS management believes
that the filters and controls they have put into place to identify post-refund erroneous claims
should identify all erroneous claims, including those with home purchase dates in the future.



5
 The 2009 Filing Season Was Successful Despite Significant Challenges Presented by the Passage of New Tax
Legislation (Reference Number 2009-40-142, dated September 21, 2009).
                                                                                                      Page 4
               The Internal Revenue Service Faces Significant
                  Challenges in Verifying Eligibility for the
                        First-Time Homebuyer Credit



We believe that the IRS’ plans to address this issue are not adequate.
2(f)***************************************************************************
******************************************************************************
2(f)********************************************. This process allows taxpayers the
use of money to which they were not entitled, and may never be entitled. In addition, the criteria
used by the IRS ****2(f)*********** do not ensure that a home purchase was made.
2(f)*********************************************************

Recommendations
Recommendation 1: The Director, Compliance, Wage and Investment Division, and
Director, Campus Compliance, Small Business/Self-Employed Division, should initiate actions
to determine whether those 19,351 taxpayers known to have claimed the Credit for a future home
purchase have actually purchased a home. If not, steps should be taken to recover the erroneous
Credits.
       Management’s Response: The IRS agreed with this recommendation. The IRS has
       identified the issue of taxpayers claiming the Credit for future home purchases as an
       important element of the overall examination and compliance plan. The Director,
       Accounts Management, Customer Account Services, Wage and Investment Division,
       agreed to flag these tax returns for necessary follow up with the taxpayers involved.
       Office of Audit Comment: While the IRS agreed with this recommendation, in its
       general comments on this report, it made some comments on this section which we
       believe warrant additional clarification. The IRS questioned the recommendation made
       in our prior audit to require homebuyers to attach documentation to their return to support
       their claim for the Credit, stating that the law as passed by Congress does not provide the
       IRS the authority to reject the claim based on insufficient documentation—an audit is
       required to disallow the claim. The IRS questioned our conclusion that attaching paper
       documentation would achieve a better outcome.
       The President’s mandate is to prevent fraud, and not simply minimize it or address it after
       it has occurred. Requiring taxpayers to provide documentation would discourage abuse
       of the Credit before it occurs, much in the same way that requiring documentation to
       substantiate certain noncash charitable contributions was designed to discourage abuse.
       Taxpayers would not have been able to claim the Credit for future purchases because they
       would have no documentation to provide.
       Although the IRS does not have authority to reject claims for the Credit made by
       taxpayers who do not provide documentation, it does have the authority to audit those
       claims. The fact that a taxpayer could not provide requested documentation would be a
       strong indicator that the claim for the Credit was highly questionable and may warrant a
       pre-refund audit.
                                                                                           Page 5
                 The Internal Revenue Service Faces Significant
                    Challenges in Verifying Eligibility for the
                          First-Time Homebuyer Credit



        The IRS also contends that our statement that the IRS improperly paid out $140 million
        to taxpayers claiming the Credit for future purchases was premature because the
        taxpayers may ultimately purchase a home. While we agree that some may ultimately
        qualify for the Credit, the number cannot yet be estimated. Regardless, the amount
        improperly paid will not change. At the time the IRS paid the Credit to these taxpayers,
        the taxpayers did not qualify. The law does not provide for prepayment of these Credits
        and the IRS by making these payments did not properly administer the tax law, regardless
        of whether or not the taxpayers will subsequently purchase a home.
Recommendation 2: The Director, Compliance, Wage and Investment Division, and the
Director, Campus Compliance, Small Business/Self-Employed Division, should perform a
review to determine the extent to which these improper claims occurred on paper-filed returns.
If warranted, the IRS should identify all paper-filed returns claiming First-Time Homebuyer
Credits for future purchases and ensure the purchases have taken place or the Credits are
recovered.
        Management’s Response: The IRS agreed with this recommendation. The Director,
        Compliance, Wage and Investment Division, and the Director, Campus Compliance,
        Small Business/Self-Employed Division, will develop a plan to determine and assess the
        compliance risk associated with paper-filed returns claiming the Credit for future
        purchases.

Some Taxpayers Who Appear Not to Be First-Time Homebuyers Are
Claiming the First-Time Homebuyer Credit
We developed computer programs to identify taxpayers who may not have qualified as first-time
homebuyers, but claimed First-Time Homebuyer Credits on their Tax Year 2008 tax returns. As
of July 25, 2009, using these computer programs, we identified 73,799 First-Time Homebuyer
Credits attached to an original U.S. Individual Income Tax Return (Form 1040), totaling almost
$504 million, that were claimed by taxpayers who had indications of prior home ownership
within 3 years. 6
The law defines a “first-time homebuyer” as any individual (and spouse, if married) who had no
ownership interest in a principal residence during the 3-year period prior to the purchase of the
home to which the Credit applies. The 73,799 taxpayers had entered information on their
individual income tax returns for 1 of the prior 3 years indicating they may have owned a home.
These entries included deductions for home mortgage interest, real estate taxes, deductible
points, and qualified mortgage insurance premiums. While these entries do indicate home
ownership, the homes involved may or may not have been the taxpayer’s principal residence, so

6
 Some of these questionable claims were filed by IRS employees. We referred these cases to the Treasury Inspector
General for Tax Administration Office of Investigations.
                                                                                                         Page 6
                  The Internal Revenue Service Faces Significant
                     Challenges in Verifying Eligibility for the
                           First-Time Homebuyer Credit



the deductions do not automatically disqualify the taxpayer from receiving the First-Time
Homebuyer Credit. However, we believe they warrant scrutiny by the IRS.
The IRS reported that as of May 17, 2009, it had initiated the use of computerized filters to
identify such cases for examination. It plans to work the cases identified by these filters before
the refund is paid. In such cases, the portion of the taxpayer’s refund associated with the
First-Time Homebuyer Credit is frozen until the IRS Examination function verifies that the
taxpayer qualifies for the Credit. The IRS reported that as of May 24, 2009, 10,000 pre-refund
cases totaling $75 million were stopped. In addition, during the period that it was developing its
computerized filters, the IRS identified and referred 10,000 questionable cases to the
Small Business/Self-Employed Division and Wage and Investment Division campuses for
examination to be worked on a post-refund basis.
We identified 70,005 questionable claims for First-Time Homebuyer Credits, totaling more than
$479 million, received by the IRS prior to the initiation of its computerized pre-refund
examination filters. We reviewed the tax accounts of a random sample of 50 of these taxpayers.
None of the accounts had received scrutiny from either the Questionable Refund or the
Examination functions relative to their claims for the First-Time Homebuyer Credit.
The IRS has not made a decision regarding whether or not the claims for these 70,005 Credits
will be subject to post-refund examinations. We found that 12,023 of these 70,005 Credits were
claimed by taxpayers who had claimed the Residential Energy Credit on 1 of their prior 3 tax
returns. This increases the likelihood that the taxpayers owned a principal residence and do not
qualify for the First-Time Homebuyer Credit since this Credit is generally only available for
qualified expenditures made on a taxpayer’s principal residence. 7

Recommendation
Recommendation 3: The Director, Compliance, Wage and Investment Division, and
Director, Campus Compliance, Small Business/Self-Employed Division, should initiate actions
to recover the First-Time Homebuyer Credit when appropriate from taxpayers who had
previously claimed the Residential Energy Credit, the District of Columbia First-Time
Homebuyer Credit, or the Mortgage Interest Credit on their individual income tax returns and
should develop a plan to review the other questionable claims that were processed prior to the
IRS filters being implemented.
         Management’s Response: The IRS agreed with this recommendation and stated that
         currently all returns are screened for questionable First-Time Homebuyer Credit



7
 We are in the process of identifying taxpayers who claimed the District of Columbia First-Time Homebuyer Credit
or the Mortgage Interest Credit in the prior 3 years as well. Both of these credits apply only to a principal residence.
                                                                                                                Page 7
                  The Internal Revenue Service Faces Significant
                     Challenges in Verifying Eligibility for the
                           First-Time Homebuyer Credit



         indicators and stored in a database that will be used to select cases for examination in
         accordance with the IRS’ overall compliance plan.
         Office of Audit Comment: Despite specific comments to the contrary made to
         auditors, the IRS indicates in its response that it had already made the decision to perform
         post-refund examinations on questionable claims for the First-Time Homebuyer Credit
         processed prior to IRS filters being implemented. Further, the IRS’ corrective action
         appears to address only returns currently being processed rather than those processed
         prior to the implementation of the filters. We will follow up with the IRS to clarify its
         corrective actions regarding examinations of returns processed prior to implementation of
         its filters.

First-Time Homebuyer Credits Were Claimed by Taxpayers Under
18 Years of Age
Through July 25, 2009, we identified 582 taxpayers under 18 years of age who claimed almost
$4 million in First-Time Homebuyer Credits. The youngest taxpayers receiving the Credit were
4 years old. Contract law generally exempts children under the age of 18 from being bound by
the terms of a contract. Therefore, it is unlikely that these taxpayers would have entered into an
arms-length transaction for the purchase of a home.
As of May 17, 2009, the IRS implemented examination filters to identify potentially erroneous
claims for the First-Time Homebuyer Credit. The age of the taxpayer receiving the First-Time
Homebuyer Credit was not one of the specific filters implemented by the IRS to screen claims
for the Credit on original filed returns. The IRS believed that its filter identifying taxpayers
claiming the Credit who had Adjusted Gross Incomes below certain levels would catch these
questionable claims.
One hundred sixty-five (28 percent) of the 582 taxpayers under age 18 that we identified
claiming the Credit did not meet the IRS’ Adjusted Gross Income screening criteria. In 64 of
these cases, other IRS filters flagged the claim for further scrutiny. However, 101 of the claims
for the First-Time Homebuyer Credit made by children under the age of 18 did not meet any of
the IRS screening criteria. 8 The total amount of these Credits was $626,779.

Recommendation
Recommendation 4: The Director, Compliance, Wage and Investment Division, and
Director, Campus Compliance, Small Business/Self-Employed Division, should add an age to


8
  Sixty-seven of these cases were filed before the IRS screening criteria were put into place, but would not have met
the criteria had it been implemented at the time the returns were filed.
                                                                                                             Page 8
                 The Internal Revenue Service Faces Significant
                    Challenges in Verifying Eligibility for the
                          First-Time Homebuyer Credit



the filters for pre-refund examinations of claims for First-Time Homebuyer Credits filed with
original returns.
        Management’s Response: The IRS agreed with this recommendation. The Director,
        Compliance, Wage and Investment Division, and the Director, Campus Compliance,
        Small Business/Self-Employed Division, will develop additional age filters to capture
        residual returns not capture by existing filters.

First-Time Homebuyer Credits Were Claimed by Taxpayers Filing Tax
Returns With Individual Taxpayer Identification Numbers
The IRS issues Individual Taxpayer Identification Numbers (ITIN) to help individuals comply
with the U.S. tax laws and to provide a means to efficiently process and account for tax returns.
Only individuals who have valid filing requirements or are filing tax returns to claim refunds of
over-withheld taxes are eligible to receive ITINs. ITINs are issued regardless of an individual’s
immigration status. In Calendar Year 2006, resident aliens accounted for 93 percent of the total
number of ITINS issued.
The Personal Responsibility and Work Opportunity Reconciliation Act of 1996 9 prohibits aliens
residing without authorization in the U.S. from receiving most 10 Federal public benefits and
defines a Federal public benefit as:
        Any grant, contract, loan, professional license, or commercial license provided by an
        agency of the United States or by appropriated funds of the United States; and any
        retirement, welfare, health, disability, public or assisted housing, postsecondary
        education, food assistance, unemployment benefit, or any other similar benefit for which
        payments or assistance are provided to an individual, household, or family eligibility unit
        by an agency of the United States or by appropriated funds of the United States.
The ARRA specifically denies the First-Time Homebuyer Credit to individuals who are
nonresident aliens. Foreign individuals are considered a resident alien if they meet one of two
tests for the calendar year—the green card test or the substantial presence test. 11 An individual
meets the green card test if at any time during the calendar year he or she was a lawful
permanent resident of the U.S. according to the immigration laws (and this status has not been
rescinded or abandoned). These individuals are able to obtain Social Security Numbers, but
depending on their immigration status, the Social Security Number may be a nonwork Social
Security Number. An individual meets the substantial presence test if he or she was physically
present in the U.S. for at least 31 days during the current year and 183 days during the 3-year


9
  P.L. 104-193 Section 401(c).
10
   Except for specified emergency services and programs.
11
   26 U.S.C. Section 7701.
                                                                                            Page 9
               The Internal Revenue Service Faces Significant
                  Challenges in Verifying Eligibility for the
                        First-Time Homebuyer Credit



period that includes the current year and the 2 years immediately before (with some limited
exceptions). These individuals may or may not be able to obtain a Social Security Number,
depending on their immigration status (some individuals meet both tests). Foreign individuals
are considered a nonresident alien for any period they are neither a U.S. citizen nor a U.S.
resident alien.
2(f)************************************************************************
***************************************************************************
Through July 25, 2009, we identified 3,238 taxpayers claiming First-Time Homebuyer Credits
totaling over $20.8 million on tax returns filed with ITINs.

Taxpayers Claiming Credits on Amended Returns Should Be Checked
for Prior Home Ownership Before Refunds Are Issued
Taxpayers have several options to claim the First-Time Homebuyer Credit, one of which is filing
an amended tax return. Taxpayers who buy homes after they have already filed their Tax
Year 2008 tax returns and purchased them within the designated time frame can file amended
returns. The amended tax returns will allow them to claim the Credits on their Tax Year 2008
returns without waiting until next year to claim them on their Tax Year 2009 returns.
We believe that amended returns are also vulnerable to erroneous claims for the First-Time
Homebuyer Credits. As part of this review, we recommended on April 29, 2009, that the IRS
implement controls to ensure that taxpayers claiming First-Time Homebuyer Credits on amended
tax returns have not owned a principal residence within the prior 3 years. We suggested that the
IRS perform research of historical taxpayer account data to ensure taxpayers do not have
indications of home ownership that would disqualify them from claiming the Credit.
The IRS agreed with our recommendation and stated that it was already in the process of
developing criteria to identify amended returns with claims for the First-Time Homebuyer Credit
for review by the Examination function. The IRS requested and was provided specific cases and
details of our criteria for identifying questionable claims for the Credit. The IRS criteria was
incorporated into the Internal Revenue Manual on June 16, 2009. Along with the criteria in the
Internal Revenue Manual, the IRS developed an enhancement to its automated tool (xClaim)
used to process amended tax returns. The tool was enhanced to automate research of IRS
records for indications of prior home ownership over the past 3 years and other predetermined
criteria that, if present, make the claim questionable. The IRS reported that the research results
will be forwarded to the Campus Examination function along with the amended tax return using
the Correspondence Imaging System on a priority basis. The IRS also indicated that the xClaim
tool was implemented on June 10, 2009. In the interim, the Examination Classification function
reviewed all First-Time Homebuyer Credit claims referred to them by the Submission Processing
function for indications of prior home ownership.

                                                                                          Page 10
               The Internal Revenue Service Faces Significant
                  Challenges in Verifying Eligibility for the
                        First-Time Homebuyer Credit



Taxpayers May Be Unaware of the Changes to the First-Time
Homebuyer Credit
As of July 25, 2009, we identified 48,580 taxpayers who appear to have not claimed or received
the full amount of the First-Time Homebuyer Credit to which they may have been entitled.
These taxpayers claimed $7,500 rather than $8,000 for homes purchased in Calendar Year 2009.
In our opinion, it is highly unlikely that these taxpayers purchased homes for exactly $75,000.
The lesser amounts were claimed most likely because either the taxpayers filed before the ARRA
was passed or they did not realize that the new law increased the Credit amount to $8,000 for
homes purchased in Calendar Year 2009. As of July 18, 2009, only 7,952 (16 percent) of these
taxpayers have filed amended returns to claim the additional $500.
The IRS does not plan to contact these taxpayers nor to track whether these taxpayers file
amended returns. The IRS believes taxpayers are aware of the additional $500 made available in
the ARRA and will amend their returns if warranted. In our opinion, this approach is not
consistent with the intent of the ARRA, which is to provide a specified amount to eligible
taxpayers to stimulate the economy.
For Tax Year 2007, the IRS developed Information About Economic Stimulus Payments for
Social Security, Veterans, and Other Beneficiaries (Package 1040A-3) to provide certain
taxpayers with information and examples on how to claim their economic stimulus payments. A
similar package informing taxpayers of how to amend their First-Time Homebuyer Credit claims
may be beneficial.
We also determined that most of the 48,580 taxpayers did not have their IRS accounts properly
coded to indicate that their home was acquired in Calendar Year 2009. This is significant
because this is the indicator the IRS will use to distinguish between those taxpayers who must
pay the First-Time Homebuyer Credit back (Housing and Economic Recovery Act of 2008) and
those that will not be required to do so (the ARRA). Unless the IRS properly codes its accounts,
these taxpayers will eventually be subject to IRS collection procedures.
We reported this issue as part of our audit of the IRS 2009 Filing Season and recommended that
the IRS take steps to accurately code these taxpayers’ accounts to properly indicate whether or
not the taxpayers are required to repay their Credits.

Recommendations
Recommendation 5: The Director, Accounts Management, Wage and Investment Division,
should monitor the accounts of taxpayers known to have purchased homes in Calendar
Year 2009 who claimed First-Time Homebuyer Credits of $7,500 to determine if the taxpayers
amend their returns. If the taxpayers do not amend their returns, the IRS should contact these


                                                                                        Page 11
               The Internal Revenue Service Faces Significant
                  Challenges in Verifying Eligibility for the
                        First-Time Homebuyer Credit



taxpayers to inform them that they may be entitled to an additional refund if the purchase price
of their home was greater than $75,000.
       Management’s Response: The IRS agreed with this recommendation. The Director,
       Accounts Management, Customer Account Services, Wage and Investment Division, will
       send notices to taxpayers purchasing homes in Calendar Year 2009 and claiming a Credit
       of $7,500, if those taxpayers have not amended their returns, to inform the taxpayers that
       they may be entitled to an additional refund.
       Office of Audit Comment: In conversations and emails with Treasury Inspector
       General for Tax Administration auditors, IRS officials specifically stated they believed
       taxpayers were aware of the additional $500 made available in the ARRA and would
       amend their returns if warranted. They further stated that since Form 5405 does not
       include the purchase price of the new home, the IRS would have to assume the homes
       cost $75,000 and the Credits claimed by the taxpayers were correct. Therefore, the IRS
       did not plan to contact these taxpayers to inform them they may be entitled to an
       additional $500. We acknowledge and applaud the IRS’ change of policy.
Recommendation 6: The Director, Tax Forms and Publications, Wage and Investment
Division, should consider providing taxpayers with specific information detailing how to amend
their tax returns to claim the full amount of the First-Time Homebuyer Credit to which they are
entitled.
       Management’s Response: The IRS agreed with this recommendation. The Director,
       Media and Publications, Customer Assistance, Relationships and Education, Wage and
       Investment Division, will revise instructions for Form 1040, Amended U.S. Individual
       Income Tax Return (Form 1040X), and Your Federal Income Tax For Individuals
       (Publication 17), to include information to assist taxpayers in amending their returns if
       they did not claim the full amount of the Credit to which they were entitled.




                                                                                          Page 12
                  The Internal Revenue Service Faces Significant
                     Challenges in Verifying Eligibility for the
                           First-Time Homebuyer Credit



                                                                                                   Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this audit is to determine whether the IRS has controls in place that
effectively identify erroneous claims for the First-Time Homebuyer Credit. (In general, this
audit is covering post-processing procedures on original returns and both processing and
post-processing procedures on amended returns.) At the time of this interim report, the
following steps have been completed or are in process (Steps I. and II. were completed as part of
Treasury Inspector General for Tax Administration Audit Report, The 2009 Filing Season Was
Successful Despite Significant Challenges Presented by the Passage of New Tax Legislation,
dated September 21, 2009, and the results from these steps were included in this report). 1 To
accomplish our objective, we:
I.       Computer identified 1,129,480 returns processed with the First-Time Homebuyer Credit
         (Form 5405) through June 5, 2009, and analyzed 58,741 early filed returns 2 and
         determined whether certain programming was in place. (To assess the reliability of the
         computer-processed data, programmers in the Treasury Inspector General for Tax
         Administration Office of Information Technology validated the data that were extracted,
         and we verified the appropriate documentation. Judgmental samples were selected and
         reviewed to ensure that the amounts presented were supported by external sources. As
         appropriate, data in the selected data records were compared to the physical tax returns to
         verify that the amounts were supported.)
II.      Assessed whether adequate information is provided by the taxpayer and/or transcribed
         into IRS computer systems and utilized to ensure claims for the Credit can be
         substantiated.
III.     Identified the number of returns that claimed the Credit with a purchase date of the home
         later than the submission date of the return and determined what the IRS Examination
         function plans to do with these cases.
         A. Developed computer programs to identify all electronically filed returns with
            First-Time Homebuyer Credit claims with a submission date prior to the acquisition
            date of the home and validated the data by comparing 50 taxpayer accounts to
            information found on the IRS Individual Master File. 3

1
  Although these steps were not part of the audit work completed as part of this review, we are including them in the
detailed scope to provide the reader a reference to what steps were completed to support our conclusions.
2
  Returns processed the week ending January 30, 2009.
3
  The IRS database that maintains transactions or records of individual tax accounts.
                                                                                                            Page 13
                  The Internal Revenue Service Faces Significant
                     Challenges in Verifying Eligibility for the
                           First-Time Homebuyer Credit



        B. Summarized the data to show how many erroneous claims were submitted with a
           “future” acquisition date and quantified the dollars claimed.
        C. Discussed with IRS Examination function management their plans for addressing
           these homebuyer claims and why these claims were allowed.
IV.     Developed a computer program to identify taxpayers erroneously claiming the First-Time
        Homebuyer Credit.
        A. Determined criteria to identify taxpayers that have owned a home within 3 years of
           requesting the First-Time Homebuyer Credit (e.g., taxpayers who claimed points,
           mortgage interest, mortgage insurance, real estate taxes, the Residential Energy
           Credit, the Mortgage Interest Credit, and/or the District of Columbia First-Time
           Homebuyer Tax Credit).
        B. Developed the computer program to identify taxpayers that met the same criteria
           listed in Step IV.A. and claimed the First-Time Homebuyer Credit.
        C. Evaluated the results of the computer program.
             1. Summarized the number of paper and electronic taxpayer claims that were
                identified by the computer program as potentially erroneous.
             2. Assessed the reliability of the program run to accurately identify those taxpayers
                not qualifying for the Credit by comparing the data from 50 records to
                information from the Individual Master File.
        D. Determined whether the IRS has identified and reviewed (or planned to review) any
           of the potentially erroneous claims for the First-Time Homebuyer Credit identified by
           our computer program prior to the initiation of its examination filters.
             1. Reviewed the tax accounts of a judgmental sample 4 of 50 taxpayers from the
                computer data to see if the accounts had received scrutiny from either the
                Questionable Refund or the Examination functions relative to their claims for the
                First-Time Homebuyer Credit.
             2. Discussed with Examination function management the IRS’ plans to work the
                potentially erroneous claims we identified as post-refund cases.




4
 We selected the 50 cases using a non-statistical random method from our database of taxpayers filing before the
IRS filters were in place and who may have previously owned a home.
                                                                                                          Page 14
                  The Internal Revenue Service Faces Significant
                     Challenges in Verifying Eligibility for the
                           First-Time Homebuyer Credit



V.      Identified returns where the age of the taxpayer may indicate a possible erroneous claim.
        A. Performed a query on the Data Center Warehouse 5 and identified taxpayers younger
           than age 18 who claimed the First-Time Homebuyer Credit on their return. We
           validated the data by comparing 30 taxpayer accounts to information found on the
           IRS Individual Master File.
        B. Stratified the returns by age and reviewed any that may indicate the claim is
           erroneous.
             1. Identified 417 taxpayers through July 25, 2009, having an Adjusted Gross Income
                within the range of the Examination function’s filter and reviewed each for
                examination or criminal investigation indicators.
             2. Identified 165 taxpayers through July 25, 2009, with Adjusted Gross Income
                greater than the Examination function’s filter limit and reviewed each for
                examination or criminal investigation indicators.
VI.     Identified claims made by ITIN holders and quantified the results.
        A. Performed a Data Center Warehouse query to identify taxpayers with an ITIN and
           claiming a First-Time Homebuyer Credit.
        B. Validated and assessed the reliability of the data by comparing the information from
           20 records to the IRS Individual Master File.
VII.    Identified IRS controls and programs designed to prevent erroneous First-Time
        Homebuyer Credit claims on amended returns.
        A. Determined the specific programs and filters that the IRS uses to identity case work.
        B. Determined the documentation that is required to support the claims, particularly
           considering President Obama’s declaration that every effort should be made to
           prevent fraud, not just identify it after the fact.
VIII.   Determined the IRS’ plans for addressing taxpayers that did not claim or receive the
        proper amount of First-Time Homebuyer Credit (purchased a home in Calendar
        Year 2009, qualified for $8,000, but only claimed $7,500).
        A. Using Treasury Inspector General for Tax Administration computer runs, determined
           the number of taxpayers that claimed and/or received $7,500 even though they
           potentially qualified for $8,000 because the home was purchased in Calendar



5
 A collection of IRS databases containing various types of taxpayer account information that is maintained by the
Treasury Inspector General for Tax Administration for the purpose of analyzing data for ongoing audits.
                                                                                                          Page 15
       The Internal Revenue Service Faces Significant
          Challenges in Verifying Eligibility for the
                First-Time Homebuyer Credit



   Year 2009. We validated the data by comparing 10 taxpayer accounts to information
   found on the IRS Individual Master File.
B. Determined the number of taxpayers meeting the criteria in Step VIII.A. who filed an
   amended return for the difference ($500). We determined if the returns were properly
   identified as taxpayers not having to pay back the Credit (either when originally filed
   or when amended).
C. Determined the IRS’ plans for addressing taxpayers that did not receive the full
   amount.




                                                                                  Page 16
              The Internal Revenue Service Faces Significant
                 Challenges in Verifying Eligibility for the
                       First-Time Homebuyer Credit



                                                                             Appendix II

                 Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
Services)
Kyle R. Andersen, Director
Bill R. Russell, Audit Manager
L. Jeff Anderson, Lead Auditor
Levi J. Dickson, Auditor
Laura Paulsen, Auditor
Robert J. Carpenter, Information Technology Specialist
Michele S. Cove, Information Technology Specialist
Arlene Feskanich, Information Technology Specialist
Martha A. Stewart, Information Technology Specialist




                                                                                    Page 17
             The Internal Revenue Service Faces Significant
                Challenges in Verifying Eligibility for the
                      First-Time Homebuyer Credit



                                                                         Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Wage and Investment Division SE:W
Director, Compliance, Wage and Investment Division SE:W:CP
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Accounts Management, Wage and Investment Division SE:W:CAS:AM
Director, Reporting Compliance, Wage and Investment Division SE:W:CP:RC
Director, Submission Processing, Wage and Investment Division SE:W:CAS:SP
Chief, Program Evaluation and Improvement, Wage and Investment Division SE:W:S:PRA:PEI
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
   Program Manager, Policy and Strategic Planning, Communications, Liaison & Disclosure,
   Small Business/Self-Employed Division SE:S:CLD:PSP
   Chief, Program Evaluation and Improvement, Wage and Investment Division
   SE:W:S:PRA:PEI




                                                                                 Page 18
       The Internal Revenue Service Faces Significant
          Challenges in Verifying Eligibility for the
                First-Time Homebuyer Credit



                                                        Appendix IV

Management’s Response to the Draft Interim Report




                                                             Page 19
The Internal Revenue Service Faces Significant
   Challenges in Verifying Eligibility for the
         First-Time Homebuyer Credit




                                                 Page 20
The Internal Revenue Service Faces Significant
   Challenges in Verifying Eligibility for the
         First-Time Homebuyer Credit




                                                 Page 21
The Internal Revenue Service Faces Significant
   Challenges in Verifying Eligibility for the
         First-Time Homebuyer Credit




                                                 Page 22
The Internal Revenue Service Faces Significant
   Challenges in Verifying Eligibility for the
         First-Time Homebuyer Credit




                                                 Page 23
The Internal Revenue Service Faces Significant
   Challenges in Verifying Eligibility for the
         First-Time Homebuyer Credit




                                                 Page 24
The Internal Revenue Service Faces Significant
   Challenges in Verifying Eligibility for the
         First-Time Homebuyer Credit




                                                 Page 25
